OIG Investigative Reports, Two men Indicted by a Federal Grand Jury sitting in Martinsburg, WV
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
UNITED STATES ATTORNEY'S OFFICE
Northern District of West Virginia
FOR IMMEDIATE RELEASE
September 19, 2006
Acting United States Attorney
Rita R. Valdrini  Media Contact
Fawn E. Thomas,
Public Affairs Specialist
1125 Chapline Street
Federal Building, Suite 3000
Wheeling, WV 26003
(304) 234-0100
Two men Indicted by a Federal Grand Jury sitting in
Martinsburg, WV
Acting United States Attorney Rita R. Valdrini announced that:
JERRY L. MEZZATESTA, age 59, of 46 S. High Street, Romney, West Virginia, and
DAVID S. FRIEND, age 59, of 434 Callen Avenue, Morgantown, West Virginia, were
named in a two-count Indictment. Count One of the Indictment alleges that MEZZATESTA
and FRIEND conspired to defraud the Board of Education of Hampshire County from
January 2004 to June of 2005 by misapplying public funds. Count One further
alleges that in July of 2003, MEZZATESTA and FRIEND obtained a grant in the
amount of $75,000 from the West Virginia Department of Education which was to
be used to fund the Supported Employment Program of the Special Services Workshop
in Hampshire County. In February of 2004, MEZZATESTA and FRIEND took actions
that resulted in providing a substantial part of the $75,000 to agencies which
had not been approved by the State Department of Education. It is alleged that
the misapplication of these funds by MEZZATESTA and FRIEND was done with an
intent to derive an advantage for MEZZATESTA in his effort to be re-elected
to the House of Delegates in 2004. Count Two of the Indictment alleges that
in February of 2004, MEZZATESTA and FRIEND misapplied property worth at least
$5,000 in Hampshire County, West Virginia. If convicted, MEZZATESTA and FRIEND
face a maximum exposure of five years imprisonment and a fine of $250,000 on
Count One and ten years imprisonment and a fine of $250,000 on Count Two. The
case will be prosecuted by Assistant United States Attorney David E. Godwin.
The case was investigated by the United States Department of Education/Office
of Inspector General and the Federal Bureau of Investigation.
It should be noted that the charges contained in the Indictments are merely
accusations and not evidence of guilt, and that each defendant is presumed innocent
until and unless proven guilty.
Printable view
Share this page
Last Modified: 09/25/2006
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov